        Special Inspector General for Afghanistan Reconstruction




SIGAR
        Testimony before the
        House Committee on Armed Services,
        Subcommittee on Oversight and Investigations




        Oversight Challenges and Their
        Implications for Afghan Women
        and Girls

        Statement of John F. Sopko,
        Special Inspector General
         for Afghanistan Reconstruction
        October 29, 2013
Chairman Roby, Ranking Member Tsongas, and Members of the Subcommittee,

Thank you for the opportunity to testify on our oversight of the Afghanistan reconstruction
effort. My statement today will focus on two issues—SIGAR’s work related to Afghan women
and girls, and the work SIGAR has issued this past quarter related to the Afghan National
Security Forces.

Support for Afghan Women and Girls Is Integral to the Reconstruction Effort

The U.S. government, along with other international donors, has recognized the importance
of addressing the needs of Afghan women as part of the overall reconstruction effort.

According to the U.S. Foreign Assistance for Afghanistan Post Performance Management
Plan for 2011-2015, “women’s empowerment is inextricably linked to the achievement of
USG objectives in Afghanistan—including improvements in areas such as security, economic
opportunity, governance, and social development.” Similarly, one of the mutual
commitments agreed to in the July 2012 Tokyo Mutual Accountability Framework is that
“strengthened governance and institutions with a particular focus on the rights of women
are prerequisites for strong and sustainable economic growth, employment generation and
prosperity for the Afghan people.” The U.S. Civil-Military Strategic Framework, which the U.S.
Embassy in Kabul issued in August of this year, identifies the role of women in society as a
key cross-cutting effort. It says the United States will “support policies and programs that
continue to advance the essential role of women in society, including increased access for
women to justice, health care, education, and economic and political leadership
opportunities.” It adds that U.S. policy and programs “will seek to engage all aspects of the
Afghan population on the positive impacts of women’s development and empowerment.” 1

In line with U.S. policy, funding for women’s initiatives is often integrated or “mainstreamed”
into broader reconstruction programs. For example, agriculture or health programs that are
not specifically targeted toward women may still have significant gender components or
identifiable goals and benefits for Afghan women.

As a result of this mainstreaming, it is not possible to specify the total amount of U.S. funds
spent in support of Afghan women. However, from fiscal year 2003 through fiscal year
2010, Congress earmarked $627 million in appropriated funds to address the needs of
Afghan women and girls. Congress directed these earmarks to certain Afghan organizations,
including the Ministry of Women’s Affairs (MOWA), the Afghanistan Independent Human
Rights Commission (AIHRC), and Afghan women-led non-governmental organizations (NGOs).
Since 2011, Congress has not earmarked a specific amount for women and girls. Rather, it
has made assistance funding contingent upon USAID certifying that the Afghan government
is, among other things, “taking credible steps to protect the internationally recognized


1   U.S. Civil-Military Strategic Framework for Afghanistan, Kabul, August 2013, p 12


SIGAR 14-8-TY                                                                             Page 1
human rights of Afghan women.” 2 Since 2011, Congress has also stipulated that the
Economic Support Fund and the International Narcotics Control and Law Enforcement
account support, to the maximum extent possible, the participation of Afghan women in
programming and directly improve the security, economic and social well-being, and political
status of women. Congress has called for continued support of the MOWA, AIHRC, and
Afghan women-led NGOs. 3

Although funds for women are generally “mainstreamed,” there are some initiatives
specifically targeted toward women and girls. In February 2010, for example, the U.S.
Embassy Kabul launched its $4.5 million Afghan Women's Empowerment (AWE) grants
program, which has provided quick-impact grants to civil society organizations, including
non-governmental organizations and universities, to undertake projects advancing women’s
participation in the political sphere. Additionally, the U.S. Agency for International
Development’s (USAID) $14 million Ministry of Women’s Affairs Organizational Restructuring
and Empowerment (MORE) project, started in December 2012, is designed to strengthen
the capacity of the Ministry of Women’s Affairs.

Afghan Women and Girls Continue to Face Tremendous Challenges

Over the last decade, Afghanistan has made some progress in advancing the rights of
females, providing critical services to women and girls, and protecting this vulnerable
population from violence. While SIGAR has not independently verified the statistics that
point to progress, available indicators do suggest some improvements.

For example, Afghan women have reportedly become increasingly involved in civic affairs,
assuming positions that would have been off-limits to them under Taliban rule. According to
the U.S. Embassy Kabul Gender Strategy, women now make up 19 percent of the Afghan
government workforce. In addition, according to recent news reports, 240 of the candidates
for the provincial council are women.

In 2009, Afghan President Hamid Karzai signed the Elimination of Violence against Women
law, which, for the first time, criminalized such forms of violence as rape, forced self-
immolation, and human trafficking.

Women and girls appear to have made gains in other areas, as well. The Kabul Embassy’s
Interagency Gender Working Group reports that nearly 120,000 Afghan girls have graduated
from high school, 15,000 women are enrolled in universities, and almost 500 women are on
university faculties.




2   Public Law 112-10, April 15, 2011
3   Public Law 112-10, April 15, 2011


SIGAR 14-8-TY                                                                              Page 2
Despite these advances, however, Afghan women and girls remain largely marginalized. The
United Nations’ Gender Inequality Index puts Afghanistan near the bottom, ranking it 175 of
186 nations rated in 2012. 4 Many Afghan women continue to be victims of gender-based
violence. A 2008 nationwide survey of 4,700 Afghan women found that 87.2 percent had
experienced at least one form of physical, sexual, or psychological violence or forced
marriage in their lifetimes. 5 The United Nations Development Fund for Women reports that
57 percent of all marriages that take place in Afghanistan are child marriages. 6 Moreover, a
2011 United Nations report found that despite enactment of the Elimination of Violence
against Women law, it was “clear that the [Afghan] government has not yet applied the law
to the vast majority of cases of violence against women.” 7

Literacy rates among Afghan women and girls lag far behind those for Afghan men and boys.
The U.S. Agency for International Development (USAID) has reported that the literacy rate for
women is 12 percent, compared to 39 percent for men. 8 According to the Kabul Embassy’s
Interagency Gender Working Group, key obstacles to education for girls and women include
early marriage; restricted movement; insecurity; distance to schools; shortage of female
teachers and facilities; competing demands on girls’ and women’s time; the lower value
attached to girls and women’s education; and outright opposition to educating females.

While life expectancy for Afghan women has reportedly increased from 44 years of age in
2001 to 62 years today 9—a noteworthy improvement—health conditions in Afghanistan
remain among the worst in the world, with the highest rates of death and disability
experienced by infants, children, and mothers during childbirth.

Recent incidents underscore the level of danger that women in Afghanistan continue to
face. SIGAR has reported that when an Afghan woman parliamentarian attempted in May
2013 to strengthen the country’s anti-violence law for women, the intense outcry against
proposed provisions, such as shelters for abuse victims and a minimum age for marriage,
forced a stop to debate after 15 minutes. 10 Just last month, one of Afghanistan’s highest
ranking policewomen was assassinated. Lieutenant Negar was shot by motorcycle gunmen

4   International Human Development Indicators; http://hdrstats.undp.org/en/indicators/68606.html
5   Global Rights, “Living with Violence: A National Report on Domestic Abuse in Afghanistan,” March 2008.
6 UNIFEM Afghanistan, “The Situation of Women in Afghanistan,” UNIFEM Afghanistan Fact Sheet, 2008. After

publication of this fact sheet, UNIFEM was dissolved and incorporated into the newly established UN Entity for
Gender Equity and the Empowerment of Women.
7 United Nations Assistance Mission to Afghanistan and the United Nations Office of the High Commission for

Human Rights, A Long Way to Go: Implementation of the Elimination of Violence against Women Law in
Afghanistan, November 2011.
8   USAID, Afghanistan: Gender Overview, October 22, 2012.
9 Ali Swee, “Women in Afghanistan,” quoting U.S. Institute of Peace Afghan scholar Hossai Wardak, Accuracy in

Academia, June 13, 2013, http://www.academia.org/women-in-afghanistan/, accessed October 19, 2013.
10   SIGAR, Quarterly Report to Congress, July 30, 2013, p. 139.


SIGAR 14-8-TY                                                                                            Page 3
in Helmand province on September 16, 2013. She had replaced Helmand’s former senior
female commanding officer, Islam Bibi, who had been gunned down only 2 months earlier.

SIGAR’s Work Related to Afghan Women and Girls

SIGAR has issued two audit reports focused on Afghan women. In the first report, published
in October 2009, we found that lack of a secure environment, as well as cultural and social
constraints, had limited women’s ability to fully exercise their political rights to register,
campaign, and vote in the August 2009 elections. 11 Moreover, we found that the
Independent Election Commission (IEC), Afghanistan’s electoral body, and the United
Nations lacked sufficient focus on resolving issues related to women prior to the election.
For example, at least 80,000 female polling staff were needed, but only 43,341 were
successfully recruited.

SIGAR recommended that the U.S. Ambassador in Afghanistan, in conjunction with the
United Nations, urge the IEC to address the challenges that female candidates and voters
face by taking a number of corrective actions, including proactively recruiting and training
female IEC staff and integrating women in the IEC planning process. The U.S. Embassy in
Kabul endorsed all of our recommendations.

As we approach the 2014 national elections, it will be critical that the IEC take concrete
actions to prevent the types of problems we identified in the 2009 elections. Preliminary
indications, however, are that the IEC will face many of the same problems it faced in 2009.
For example, in August of this year, the IEC warned that a shortage of female police officers
could keep women from voting. According to the IEC, it needs 12,000 female police officers
to conduct body searches at polling stations. However, the Afghan National Police includes
only 1,570 women—1 percent of the overall force.

SIGAR also conducted an audit related to the $627 million the Congress earmarked from
2003-2010 to support Afghan women. This audit report, released in July 2010, found that
the Department of State (State) and USAID did not coordinate their approaches to reporting
on the use of congressionally appropriated funds to address the needs of Afghan women
and girls. 12 As a result, Congress did not have complete information on how the funds it had
earmarked were used to address the needs of Afghan women and girls. We also found that
State and USAID had not fully met congressional directives calling for assistance to certain
Afghan government entities. For example, the AIHRC was to receive at least $11 million from
2004 to 2007. However, it received only $5 million from USAID in 2004 for the next 3 years.
Finally, we found that State and USAID had not articulated how U.S. funded activities



11   SIGAR Audit 10-1, Barriers to Greater Participation by Women in Afghan Elections, October 2009.
12SIGAR Audit 10-13, Greater Coordination Needed in Meeting Congressional Directives to Address and
Report on the Needs of Afghan Women and Girls, July 30, 2010.


SIGAR 14-8-TY                                                                                          Page 4
directed toward Afghan women and girls aligned with either the U.S. or the Afghan
governments’ overall strategies for these populations.

In that report, SIGAR recommended that the Secretary of State, in consultation with the
USAID Administrator, (1) develop consistent reporting requirements for all USAID and State
programs and activities to provide data on female beneficiaries and measurable impacts of
activities intended to address the needs of Afghan women and girls; (2) develop a
coordinated approach to reporting on the use of earmarked funds; (3) align activities to
ensure consistency with the goals and benchmarks stated in the U.S.-supported
Afghanistan’s national strategies; and (4) target funds to address the organizations
specified in legislation. State and USAID concurred with these recommendations.

This year, SIGAR initiated another audit focused on Afghan women and girls that will, in part,
assess the extent to which the problems we identified in our 2010 audit have been
addressed. We began this audit, in part, due to interest from several members of Congress,
including members of this Subcommittee. The audit will: (1) identify U.S. government
programs or initiatives to improve the rights and treatment of women in Afghanistan since
fiscal year 2011; (2) assess the extent to which these programs and initiatives have been
coordinated across different U.S. government agencies; and (3) identify challenges in
addressing women’s issues in Afghanistan and evaluate U.S. efforts to address these
challenges.

Preliminary information indicates that U.S. agencies have made some progress in improving
their coordination of programs and initiatives geared toward women and girls. For example,
as referenced above, the U.S. Embassy in Kabul has established an Interagency Gender
Working Group, which released a new Gender Strategy in September 2012. This strategy is
designed to be consistent with the Afghan government’s National Action Plan for the Women
of Afghanistan, as well as other key Afghan, international donor, and U.S. government
documents, such as the U.S. Civil Military Strategic Framework for Afghanistan. We will issue
our final report on this audit sometime next year.

SIGAR also recently began a broadly scoped audit examining U.S. efforts to strengthen
Afghanistan’s education sector. Because many of the U.S. government’s education
programs are directed toward girls and young women, this audit will likely include some
discussion of gender-related issues. For example, the audit will include an assessment of
programs such as the 5-year, $31 million Partnership for Advancing Community Education in
Afghanistan program, which aimed to improve girls’ access to education in rural areas, and
the Strengthening Education in Afghanistan project, which focused on accelerated learning
programs for over-age students, particularly girls, in 13 schools. This audit will likely result in
a series of reports, the first to be released in early 2014.

In addition to this ongoing audit work, SIGAR will continue to report on the status of Afghan
women and girls in its congressionally mandated Quarterly Report. In our newest Quarterly


SIGAR 14-8-TY                                                                                Page 5
Report, to be released tomorrow, we once again raise concerns about the challenges of
recruiting women into the Afghan National Security Forces. While the goal is for women to
make up 10 percent of the Afghan National Army (ANA) and Afghan Air Force, they currently
make up only 1 percent of these forces. According to the Combined Security Transition
Command-Afghanistan (CSTC-A), there are currently 503 women serving in the ANA, and only
33 in the Afghan Air Force. Our October 2013 quarterly report also highlights a recent study
published by Oxfam, 13 which argued that recruiting more women into the police is critical for
the safety of Afghan women and national stability. However, as noted above, efforts to
recruit women into the Afghan National Police have also been largely unsuccessful, with only
1,570 female police officers nationwide—a figure that translates roughly into one female
officer for every 10,000 women in the country.

Oversight Challenges as Military Withdraws May Be Exacerbated for Women and Girls

SIGAR is concerned about the impact of the coalition troop drawdown on security and the
related implications for ensuring adequate oversight of the U.S.-funded reconstruction effort
in Afghanistan, including programming for Afghan women and girls. Significant portions of
Afghanistan are already inaccessible to SIGAR, other inspectors general, the Government
Accountability Office, and other U.S. civilians conducting oversight, such as contracting
officers. This constraint on oversight will only worsen as more U.S. and coalition bases close.

Although it is difficult to predict the future of the U.S. presence in Afghanistan, it is likely that
less than a quarter of Afghanistan—mostly areas around cities and major bases—will be
accessible to U.S. civilian oversight personnel by the end of the transition, a significant
decrease since 2009. This will be a serious matter since Afghanistan is an overwhelmingly
rural country—76 percent of the population as of 2012 14—so countering Taliban influence
over the rural majority of Afghans will also become more difficult as oversight-access zones
shrink, thereby further complicating the reconstruction mission.

Direct oversight of reconstruction programs in much of Afghanistan will become prohibitively
hazardous or even impossible as U.S. military units withdraw, coalition bases shut down,
and civilian reconstruction offices in the field close. By extension, this also means that there
will be fewer opportunities for contracting officers, their technical representatives, and other
oversight personnel to observe and assess the extent to which female beneficiaries of
reconstruction programs are receiving services, protected from the many dangers they face,
and consulted in the design and implementation of projects intended to meet their needs.




13Oxfam is an international confederation of 17 nongovernmental organizations dedicated to fighting poverty
worldwide.
14 The World Bank, online data bank entry for Afghanistan, “Rural population (% of total population),”
http://data.worldbank.org/indicator/SP.RUR.TOTL.ZS/countries, accessed October 19, 2013.


SIGAR 14-8-TY                                                                                            Page 6
Just this quarter, USAID announced plans to commit $200 million for the Promoting Gender
Equity in National Priority Programs (PROMOTE) program designed to increase education,
training, and promotion of women in Afghanistan’s government, business sector, and civil
society. USAID Administrator Rajiv Shah has called this initiative “the largest single
investment USAID has ever made in its history in the future of women and girls anywhere in
the world.” The PROMOTE program is not expected to begin until the middle of 2014, at
which point the military withdrawal will be nearing an end.

According to USAID, PROMOTE is in no way dependent on the U.S. troop presence because
the program is designed to work with existing Afghan structures and provide civilian women
with leadership opportunities. However, program documentation suggests that USAID’s
ability to directly oversee this program, which will be implemented nationwide, will be
limited. For example, the PROMOTE Request for Proposals notes that a monitoring and
evaluation contract will be used “in lieu of USAID monitors, for security reasons.”

While the use of contractors to conduct monitoring and evaluation—also known as third-
party monitoring—is a common alternative method for conducting oversight, SIGAR has
questions regarding its effectiveness in a contingency setting like Afghanistan. SIGAR plans
to hold an expert panel 15 on this issue in the coming months and will also initiate an audit
next year on USAID’s use of third-party monitors in Afghanistan.

Others have raised questions about how the coalition troop withdrawal and the
accompanying decrease in donor funds for Afghanistan will affect Afghan women and girls.
During a recent visit to Afghanistan, the United Nations High Commissioner for Human
Rights noted that there is widespread concern among civil-society groups that the
momentum on advancing women’s rights has halted and may be regressing. As the
organization Human Rights Watch has said, “Many Afghans feel enormous anxiety as the
2014 deadline for withdrawing international combat forces from Afghanistan looms and
warlords and other powerbrokers jockey for position....The Afghan government’s failure to
tackle discrimination and respond effectively to violence against women undermines the
already perilous state of women’s rights.” 16 Similarly, Clare Lockhart, Director of the Institute
for State Effectiveness, has testified before Congress that “security for Afghan women to
exercise their fundamental rights and protect their hard won gains will rest first and
foremost on the fundamental pillar of security: Can the Afghan state defend its citizens from
threats to state survival and to its citizens?”

The Interagency Gender Working Group at the U.S. Embassy in Kabul has identified a
number of key transition-related threats. These include a resurgence of recidivist gender

15 An expert panel is a forum in which individuals with specific subject matter expertise come together to
discuss a specific issue.
16 Human Rights Watch, “Human Rights in Afghanistan,” online introduction,
http://www.hrw.org/asia/afghanistan, accessesd October 19, 2013.


SIGAR 14-8-TY                                                                                                Page 7
politics; increased fracturing of women’s coalitions; and diminished international leverage
over the Afghan government, creating an environment in which Afghan officials may be less
willing to make concessions to the international community and may eliminate or weaken
reform and development initiatives currently supported by donor nations.

In the coming year, SIGAR will continue to focus attention on how the military withdrawal, the
decline in donor resources, and the transition to Afghan governance and control of the ANSF
will affect reconstruction, including efforts aimed at women and girls.

SIGAR’s Recent Afghan National Security Forces-related Work

In addition to our work on Afghan women and girls, SIGAR has a large body of work focused
on the ANSF. The majority of U.S. reconstruction funding in Afghanistan has been dedicated
to equipping, basing, and training the ANSF, and the success of the overall reconstruction
effort depends, in many ways, on the success of these initiatives. This quarter, SIGAR issued
a number of new audit and inspection products related to the ANSF. These reports
underscore some key issues that SIGAR has identified in earlier work. These include:

    •     The provision of direct assistance to the Afghan government without full assessing
          and/or mitigating financial management weaknesses
    •     The lack of an ANSF basing plan that takes into account future ANSF numbers
    •     The absence of strong accountability measures over supplies provided to the ANSF
    •     The failure to consistently exercise strong contract oversight and management

The U.S. Government Is Providing Direct Assistance to the Afghan Government without Fully
Assessing and/or Mitigating Financial Management Weaknesses

This month, SIGAR issued an audit report on U.S. oversight of fuel purchases for the Afghan
National Police (ANP). 17 Since October 2011, the Combined Security Transition Comand-
Afghanistan (CSTC-A) has directly contributed $26.8 million in U.S. funds to the Afghan
government. It plans to directly contribute another $1.2 billion over the next 5 years to the
Afghan Ministry of Interior (MOI) for the purchase of fuel for the ANP.

CSTC-A’s standard operating procedures require six steps be taken prior to the
disbursement of direct contributions, including a risk assessment and steps to verify how
direct contributions are spent. However, we could not find evidence that CSTC-A officials
conducted the required risk assessment to determine MOI’s readiness to assume all
responsibilities for capacity development and stewardship of U.S. funds. While SIGAR did
find one PowerPoint slide from CSTC-A referring to a risk assessment (which indicated that
direct contributions for ANP fuel were rated as “high-risk”), CSTC-A officials could not provide
any documentation or explanation for this rating and told us they did not have a plan to

17SIGAR  Audit 14-1, Afghan National Police Fuel Program: Concerted Efforts Needed to Strengthen Oversight
of U.S. Funds, October 2, 2013.


SIGAR 14-8-TY                                                                                         Page 8
mitigate the risk. Despite the absence of an assessment or risk mitigation plan, CSTC-A has
continued to provide direct funding to the MOI for ANP petroleum, oil, and lubricants (POL). I
am pleased to note, however, that, in response to our audit report, CSTC-A concurred with
our recommendation to perform the required risk assessments.

The findings in this recent report echo those from another report we issued in January of this
year, in which we found that although limited assessments of the Afghan Ministry of Defense
(MOD) and the ANA indicated that the MOD is not ready to assume sole responsibility for
fuel purchases, CSTC-A was proceeding with plans to directly provide at least $1 billion to
the Afghan government between early 2013 and fiscal year 2018 for MOD to purchase its
own fuel. 18

Let me state very clearly that SIGAR does not oppose direct assistance. We recognize that it
can help build ministerial capability and support aid recipients in tailoring program execution
to specific and changing circumstances. Given Afghanistan’s long-standing and well-
documented extent of corruption, however, increasing the portion of aid delivered as direct
assistance also increases the risk of undetected theft, corruption, and waste.

The United States and other international donors must establish mechanisms to protect
direct assistance from corruption and ensure vigorous oversight of funds. Implementing
agencies are the first line of defense against waste, fraud, and abuse. They must have clear
bilateral agreements with strong provisions for oversight. Accordingly, direct assistance
should be conditioned on the Afghan ministries not only meeting measureable outcomes,
but also providing unfettered and timely access to their books and records, as well as to
sites, offices, and staff of projects funded by U.S. assistance.

DOD Lacks an ANSF Basing Plan That Takes into Account Future ANSF Numbers

In January 2011, we released an audit report on DOD’s planning for ANSF facilities. 19 We
found that despite considerable funding and large numbers of facilities being constructed,
CSTC-A, which has responsibility for managing the construction of ANSF facilities, had not
developed a long-range construction plan. The lack of a plan increased the risk of building
facilities that did not meet ANSF needs. We recommended that CSTC-A develop a long-range
planning document that incorporated, among other things, updated requirements and
justification for all ANSF facilities to meet projected ANSF needs. CSTC-A did not fully concur
with this recommendation, but noted that it could improve “the identification of future
projects and better document its priorities.”



18 SIGAR Audit 13-4, Afghan National Army: Controls over Fuel for Vehicles, Generators, and Power Plans Need
Strengthening to Prevent Fraud, Waste, and Abuse, January 24, 2013.
19SIGAR Audit 11-6, Inadequate Planning for ANSF Facilities Increases Risks for $11.4 Billion Program,
January 26, 2011.


SIGAR 14-8-TY                                                                                            Page 9
Last year, we decided to revisit this important issue through a follow-on audit and, this
quarter, released a new report on CSTC-A’s planning for ANSF facilities. 20 We found some
improvements. For example, the International Security Assistance Force Joint Command
(IJC), to its credit, has established a process to review and analyze existing coalition facilities
for transfer to the Afghan government. Through this process, the coalition has closed 235
facilities and transferred 352 to the ANSF, helping CSTC-A cancel 318 construction projects
and reduce costs by approximately $2 billion.

However, we also found that CSTC-A continues to lack a comprehensive basing plan for the
ANSF. This is significant because current construction requirements do not take into
account planned reductions in the number of ANSF from the currently approved 352,000 to
the expected final troop strength of 228,500. As a result, ANSF facilities will have excess
capacity, a problem we have identified in some of our inspections. 21 Notably, IJC and CSTC-A
officials informed us they do not track occupancy of existing ANSF facilities.

Excess capacity is not the only problem that the ANSF construction program faces. As
discussed earlier in this statement, the U.S. government’s ability to oversee projects will be
severely diminished following the drawdown of U.S. and coalition forces in 2014, because
increasingly large swaths of the country will be inaccessible to U.S. government personnel.
Using CSTC-A’s 2012 base construction schedule, SIGAR identified 52 projects that may not
meet the December 2014 construction deadline. We are, therefore, concerned that these
projects may not receive the level of scrutiny warranted to ensure that U.S. funds are
safeguarded from waste, abuse, and fraud.

DOD Has Not Instituted Robust Controls over Supplies Provided to the ANSF

SIGAR’s work this quarter also raises concerns about a lack of accountability over supplies
provided to the ANSF, in particular vehicle spare parts for the ANA 22 and petroleum, oil, and
lubricants for the ANP.23

In October 2012, the International Security Assistance Force Commander’s Advisory and
Assistance Team reported that CSTC-A could not account for about $230 million worth of

20 SIGAR Audit 13-18, Afghan National Security Forces: Additional Action Needed to Reduce Waste in $4.7
Billion Worth of Planned and Ongoing Construction, September 13, 2013.
21In a July 2-12 report, we found three Afghan Border Police Bases in Nangarhar province that were either
unoccupied or were not being used for their intended purpose. (SIGAR Inspection 12-3, Construction
Deficiencies at Afghan Border Police Bases Put $19 Million Investment at Risk, July 30, 2013.) In a January
2013 report on the $7.3 Imam Sahib Border Police Company Headquarters, we found that only 12 Afghan
personnel were present at a facility built to accommodate up to 175. (SIGAR Inspection 13-5, Imam Sahib
Police Company Headquarters in Kunduz Province: $7.3 Million Facility Sits Largely Unused, January 29,
2013.)
22 SIGAR Audit 14-3, Afghan National Army: Combined Security Transition Command-Afghanistan Lacks Key

Information on Inventory in Stock and Requirements for Vehicle Spare Parts, October 16, 2013.
23   SIGAR Audit 14-1.


SIGAR 14-8-TY                                                                                         Page 10
spare parts for the ANSF and, due to the lack of accountability for these spare parts, had
ordered $138 million of additional replacement parts. The team referred this matter to
SIGAR and asked that we examine it further. We found that CSTC-A is placing orders for
vehicle spare parts without accurate information on what parts are needed or are already in
stock. Without accurate inventories, CSTC-A does not have data to justify the number of
vehicle spare parts authorized or purchased for the ANA. Moreover, we found that while
CSTC-A is able to track vehicle spare parts into Afghanistan for orders placed during the
period 2010 through 2012, it could not document that the parts were transferred to the
ANA.

In June 2013, as a result of our work, CSTC-A began implementing new procedures for
incoming containers of vehicle spare parts. To accelerate transferring property to the ANA
and to ensure that all vehicle spare parts remain in U.S. custody until title transfer has taken
place, CSTC-A now plans to redirect all incoming vehicle spare parts containers to a U.S.
transfer point prior to officially transferring them to the ANA. In addition, CSTC-A is
attempting to repossess vehicle spare parts until the ANA can conduct an official inventory
and transfer. These are positive developments, and we will continue to monitor CSTC-A’s
efforts to ensure greater accountability over vehicle spare parts.

As mentioned earlier, we recently issued a report on fuel purchases for the ANP. In addition
to the concerns we raised in that report regarding direct contributions to the Afghan MOI to
purchase fuel, we found that poor oversight and documentation of blanket purchase
agreements and fuel purchases resulted in the use of higher-priced vendors and
questionable costs to the U.S. government. In several instances, vendors charged fees for
fuel deliveries that were not allowed under the blanket purchase agreements issued by the
U.S. Central Command Joint Theater Support Contracting Command. In addition, the use of
higher-priced vendors in Kabul Province resulted in almost $1 million in additional costs
from November 2012 through December 2012.

We also found that CSTC-A was not using fuel-consumption data to determine how much
fuel to order for the ANP, increasing the likelihood that it would purchase more fuel than was
needed. In fact, at one police station, CSTC-A ordered $4.6 million worth of excess fuel.
Finally, we found that CSTC-A overstated its funding estimates for ANP fuel by about $94
million for fiscal year 2013, in large part because it does not know how much fuel the ANP
actually consumes and, therefore, needs.

I am pleased to report that CSTC-A concurred with almost all of our recommendations in this
report to strengthen accountability over fuel purchases for the ANP, and we will continue to
urge CSTC-A to implement all of our recommendations.

DOD Has Not Consistently Exercised Strong Contract Oversight or Management




SIGAR 14-8-TY                                                                            Page 11
One of the most common and continuing problems identified in our work is poor contract
oversight and management, especially of construction projects. This quarter, we issued
three inspection reports on facilities constructed with funds managed, in part, by DOD.


    •   One inspection was of the Justice Center in Parwan (JCIP) complex, designed to
        provide a secure facility for transferring Afghan combatants from U.S. military custody
        into the Afghan criminal justice system. We found that construction of the JCIP
        courthouse had not been completed and the workmanship of the construction done
        to date was poor. For example, we observed numerous cracks in the concrete,
        incomplete pours of concrete, and rebar bound with wire instead of being welded,
        which could lead to structural failure. We also found that oversight of the
        construction project was not conducted as required. For example, we found no
        evidence that the project’s contracting officer representative conducted monthly
        reviews or submitted the required reports. In June 2013, DOD notified the contractor
        that the JCIP courthouse contract was being terminated for convenience, which gives
        the U.S. government the right to terminate a contract without cause. At the time, the
        contractor had been paid $396,000. Because the contract was terminated for
        convenience rather than default, the contractor could have requested the amount
        remaining on the contract—about $2.2 million. A draft of our inspection report
        recommended reviewing this decision and taking action to address the contractor’s
        failure to complete the project. I am pleased to report that, on October 3, 2013, DOD
        rescinded the contract’s termination for convenience and issued a termination for
        default.

    •   Another recent SIGAR inspection was of an ANP District Police Headquarters in Archi,
        Afghanistan. We found that force-protection measures—such as the perimeter walls
        and guard towers—built under a March 2008 contract between the U.S. Army Corps
        of Engineers (USACE) Afghanistan Engineer District-North and Swiz Hewadwal Joint
        Venture appeared well constructed. However, we were unable to determine whether
        they had been built in accordance with contract requirements and applicable
        construction standards, because USACE officials could not locate the project’s
        construction files, including important documents such as the contract’s technical
        specifications and requirements. Moreover, while additional buildings had been
        constructed on the site, neither USACE nor CSTC-A officials knew who built these
        additional buildings, when they were built, or how much they cost. We also found that
        the Archi District Police Headquarters facilities were in a state of disrepair, with an
        estimated 40 ANP personnel living and working in facilities with extensive mold
        growing on the interior walls and ceilings of the barracks and bathrooms.

    •   Finally this quarter, we released an inspection report on a medical clinic in Walayatti,
        Afghanistan, paid for with Commander’s Emergency Response Program funds. We


SIGAR 14-8-TY                                                                             Page 12
        found that none of the three structures constructed for the clinic was constructed
        according to the design specifications. As with the Archi District Police Headquarters,
        we found that critical documents were missing from the project’s files, such as
        approvals of deviations from contract specifications and documentation of project
        oversight. The project’s files also contained no documentation of the facilities’
        transfer to the Afghan government after construction was completed. Indeed, we
        found that the clinic was empty and had never been used.

Conclusion

As the members of this Subcommittee are well aware, we have entered a critical time in the
effort to rebuild Afghanistan. So much depends on whether the coalition’s attempt to build a
strong, stable, and capable ANSF succeeds, and the stakes could not be higher for Afghan
women and girls.

In the coming year, SIGAR will continue to focus on U.S.-funded programs to strengthen the
ANSF. We also look forward to informing Congress, and especially members of this
Subcommittee, on the results of our audits addressing the U.S. government’s efforts to
support women and girls in Afghanistan.

Thank you for the opportunity to testify today, and I will be pleased to answer any of your
questions.




SIGAR 14-8-TY                                                                            Page 13
               ONGOING ANSF PROJECTS - LOCATED OUTSIDE THE POSSIBLE OVERSIGHT ACCESS BUBBLES 2014

Map                                                Sponsoring   Estimated Total                    Project Completion
                    Description/Location                                          Funding Source                                    Location
Label                                                Agency       Project Cost                            Date

  1     ANP UP District HQ @ Darwaz, Badakhshan      ANP         $3,021,198.63    ASFF                       6/30/14    Kunduz Resident Office
  2     ANP UP DHQ at Raghistan, Badakhshan Prov     ANP         $1,017,200.00    ASFF                       1/16/14    Kunduz Resident Office
  3     ANP Border Crossing Post, Aquina Faryab      ANP         $6,759,872.00    ASFF                       5/31/14    Spann Resident Office
  4     ANP BPC FD Class B @ Shir Khan (Imam Sah     ANP         $3,500,515.00    ASFF                       5/12/14    Kunduz Resident Office
  5     ANP Fire Department Class B, Feyzabad        ANP         $2,970,328.39    ASFF                        1/2/14    Kunduz Resident Office
  6     ANA 2/2/209 Barracks                         ANA         $4,400,700.00    ASFF                       9/12/14    Kunduz Resident Office
  7     ANP BP Company HQ, Qala Panja                ANP         $3,842,494.00    ASFF                       5/31/14    Kunduz Resident Office
  8     ANP BP Company HQ, Andkhoy, Faryab           ANP         $4,437,293.38    ASFF                       1/31/14    Spann Resident Office
  9     ANP BP Company HQ @ Takht Qubat (Qala-I-     ANP         $4,350,000.00    ASFF                       9/18/14    Kunduz Resident Office
 10     ANP ANCOP Collective Training Center         ANP        $30,071,985.00    ASFF                       1/24/15    Spann Resident Office
 11     I&P Ghor Tepa Road                           CERP        $5,966,030.00    CERP                       3/15/14    Kunduz Resident Office
 12     ANP Main Rd Sec. Co @ Shebergan, Jawzjan     ANP         $2,971,773.80    ASFF                        5/1/14    Spann Resident Office
 13     ANA FAARP Kunduz                             ANA        $21,750,000.00    ASFF                       7/14/14    Kunduz Resident Office
 14     ANP MOI Supply Point, Sherberghan, Jowzj     ANP         $5,125,939.24    ASFF                       6/13/14    Spann Resident Office
 15     ANP Provincial Response Company @ Pol-e-     ANP         $3,504,955.24    ASFF                       4/26/14    Kunduz Resident Office
 16     ANP UP District HQ @ Sari Pul, Sar-ePul      ANP         $2,544,994.86    ASFF                       1/31/14    Spann Resident Office
 17     ANP UP District HQ @ Borka Burkah Baghla     ANP         $1,515,891.00    ASFF                       5/17/14    Kunduz Resident Office
 18     ANP BP Company HQ @ Shirin Tagab, Faryab     ANP         $4,350,000.00    ASFF                       9/18/14    Mazir-Sharif Area Of (RC-North)
 19     ANP UP Provincial HQ @ Sar-i-Pol, Sar-i-     ANP         $7,036,543.60    ASFF                        5/1/14    Spann Resident Office
 20     ANP UP District HQs Baglan Province (3)      ANP         $8,067,014.00    ASFF                       8/25/14    Kunduz Resident Office
 21     ANP R-UP District HQ @ Khawja Herjan, Ba     ANP         $2,400,000.00    ASFF                        9/1/14    Mazir-Sharif Area Of (RC-North)
 22     ANA 1/209 Bde Meymanah PRT Conversion        ANA         $1,667,540.00    ASFF                       8/26/14    Spann Resident Office
 23     ANP MOI Supply Point @ Pul-e Khumri,         ANP         $5,570,000.00    ASFF                       9/16/14    Kunduz Resident Office
 24     ANP Main RD Sec Co @ Almar, Faryab (SUS)     ANP         $3,684,700.00    ASFF                        3/3/14    Spann Resident Office
 25     ANP Main RD Sec Co @ Qaisar, Faryab          ANP         $3,091,000.00    ASFF                       5/15/14    Spann Resident Office
 26     ANP UP District HQ @ Ru Ye Sang Kahmard      ANP         $1,937,610.00    ASFF                        4/2/14    Bagram Off-Base Resident Office
 27     ANP UP District HQ, Sayghan, Bamyan          ANP         $1,652,427.89    ASFF                        2/9/14    Bagram Off-Base Resident Office
 28     ANA 3/207 Brigade Camp CED Badghis           ANA        $81,262,059.87    ASFF                        5/1/14    Qali Naw Resident Office
 29     ANP ANCOP Patrol BN@Badghis                  ANP        $15,887,392.89    ASFF                      10/11/14    Qali Naw Resident Office
 30     ANP UP Substation, Shaybar District, Bam     ANP         $1,327,147.85    ASFF                        8/1/14    Bagram Off-Base Resident Office
 31     ANA AAF Shindand Air Wing Ph IV              ANA        $15,667,519.00    ASFF                       6/18/14    Shindand Resident Office
 32     I&P Parwan to Bamyan Section 6.1              AIF        $3,750,000.00    AIF                       10/30/14    Bagram Off-Base Resident Office
 33     AIF Parwan to Bamyan Section 6.2              AIF        $3,288,799.00    AIF                        11/9/14    Bagram Off-Base Resident Office
 35     ANP UP District HQ @ Bamyan, Bamyan          ANP         $2,222,779.00    ASFF                        3/7/14    Bagram Off-Base Resident Office
 36     ANP UP District HQ @ Nayak Yakawlang         ANP         $1,616,646.32    ASFF                       6/23/14    Bagram Off-Base Resident Office
                    ONGOING ANSF PROJECTS - LOCATED OUTSIDE THE POSSIBLE OVERSIGHT ACCESS BUBBLES 2014

  Map                                                Sponsoring   Estimated Total                    Project Completion
                         Description/Location                                       Funding Source                                     Location
  Label                                                Agency       Project Cost                            Date


   37     ANP Class B Fire Dept Chaghcharan, Ghor       ANP         $3,325,855.27   ASFF                        6/4/14    Qali Naw Resident Office
   38     ANP UP District HQ @ Panjab, Bamyan           ANP         $1,999,922.00   ASFF                       6/27/14    Bagram Off-Base Resident Office
   39     ANP UP District HQ @ Waras, Bamyan            ANP         $1,882,626.00   ASFF                       5/16/14    Bagram Off-Base Resident Office
   40     ANP R-Police Dist HQ, Nawur, Ghazni           ANP         $2,199,500.00   ASFF                       3/15/14    Ghazni Resident Office
   41     ANP Border Police Company HQ @ Kal Yarak      ANP         $4,989,187.00   ASFF                        4/1/14    Herat Resident Office
   42     ANP MOI Supply Point Fire Dept DHQ            ANP        $21,641,420.46   ASFF                       8/31/14    Tarin Kowt Resident Office
   43     ANP BP Company HQ @ Kot Kalay, Khost          ANP         $4,500,000.00   ASFF                       9/19/14    Sharana Area Office (RC East)
   44     ANP R-Police Dist HQ, Wali Moh Shah -SUS      ANP         $2,778,411.00   ASFF                       10/3/14    Ghazni Resident Office
   45     ANP Police Dist HQ, Precinct 4, Ghazni        ANP         $1,922,181.50   ASFF                       7/10/14    Ghazni Resident Office
   46     ANP BP BN HQ @ Kalata Nazar                   ANP         $5,584,774.80   ASFF                       7/21/14    Herat Resident Office
   47     ANP Police Dist HQ, Waghez, Ghazni            ANP         $2,548,400.00   ASFF                       9/14/14    Ghazni Resident Office
   48     ANA Parsa Garrison Upgrades                   ANA        $18,788,080.41   ASFF                       1/15/14    Gardez Resident Office
   49     ANP FD Class B @ Khost, Khost                 ANP         $2,806,628.00   ASFF                       3/16/14    Gardez Resident Office
   50     AIF Ghulam Khan Corridor                      AIF        $20,100,000.00   AIF                        11/6/14    Sharana Area Office (RC East)
   51     ANP Border Cross, Gulam Khan                  ANP         $6,444,658.00   ASFF                        3/6/14    Gardez Resident Office
   52     ANP Provincial Response Company               ANP         $3,765,142.00   ASFF                       4/27/14    Logar Resident Office
   53     ANA 6/2/203 Rushmore South Infantry Kand      ANA        $28,369,159.82   ASFF                        6/4/14    Logar Resident Office
   54     ANP UP Dist HQ, Sar Hawza, Paktika            ANP         $3,206,921.83   ASFF                      12/31/14    Logar Resident Office
   55     ANA 2/3/203 Infantry Kandak at Moqur Dis      ANA        $26,544,496.00   ASFF                       6/16/14    Ghazni Resident Office
   56     ANP Main Road Security Co., Bala Baluk        ANP         $2,997,218.00   ASFF                       5/22/14    Farah Project Office
   57     ANA 3/4/205 Brigade Garrison Phase 2          ANA        $20,200,000.00   ASFF                       8/24/14    Tarin Kowt Resident Office
   58     ANP PRC & Fire Dept @ Uruzgan                 ANP         $5,066,232.00   ASFF                       6/15/14    Tarin Kowt Resident Office
   59     ANP MOI Supply Point @ Farah                  ANP         $6,776,674.12   ASFF                       2/15/14    Farah Project Office
   60     SEPS Helmand Transmission Lines & Subs        AIF       $108,565,053.00   AIF                         7/1/14    Special Projects Area Office
   61     Kajaki Dam (installation of 2nd Turbine)     USAID       $75,000,000.00   USAID                     unknown     unknown
   62     Kajaki Tunnel Wks, Intake Twr, & Piezom.      AIF        $25,642,901.95   AIF                       11/17/14    Special Projects Area Office
   63     ANP UP District HQ @ Qala-e-Kah, Farah        ANP         $2,412,696.00   ASFF                      11/21/14    Farah Project Office
   64     ANP UP District HQ, Waza Khawa, Paktika       ANP         $2,542,530.00   ASFF                       6/30/14    Logar Resident Office
   65     ANP BCP @ Posht-e-Koh Bazaar                  ANP         $4,089,563.52   ASFF                       6/28/14    Shindand Resident Office
   66     ANP MOI Supply Point (MSP) @ Qalat Zabul      ANP         $6,947,037.00   ASFF                       4/29/14    Qalat Resident Office
   67     ANP UP District HQ @ Shinkay, Zabul           ANP         $4,963,078.80   ASFF                        8/4/14    Qalat Resident Office
   68     ANP BP Co. HQ @ Dow Kohana                    ANP         $2,637,445.13   ASFF                        7/9/14    Farah Project Office
   69     ANP BP Co. HQ @ Chalorka                      ANP         $3,379,595.00   ASFF                       8/14/14    Farah Project Office
   70     ANP BP Co. HQ @ Tapa Khoran                   ANP         $2,641,086.14   ASFF                       7/21/14    Shindand Resident Office
   71     ANP MOI Supply P, Fire Dept DHQ-Zaranj        ANP        $11,991,641.00   ASFF                       5/28/14    Dwyer Resident Office
   72     BP Company HQ @ Tapa Talab Khan (CAT 3)       ANP         $4,500,000.00   ASFF                       9/12/14    Helmand Area Office


NOTE: Site 61 is a USAID Project
